                                                                             Report No. DODIG-2014-100



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              AUGUST 22, 2014




                     Assessment of DoD Wounded
                     Warrior Matters: Selection and
                     Training of Warrior Transition Unit
                     and Wounded Warrior Battalion
                     Leaders and Cadre




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste & Abuse

                                     HOTLINE
                                     Department of Defense
                                     dodig.mil/hotline | 8 0 0 . 4 2 4 . 9 0 9 8




For more information about whistleblower protection, please see the inside back cover.
                                Results in Brief
                                Assessment of DoD Wounded Warrior Matters: Selection
                                and Training of Warrior Transition Unit and Wounded
                                Warrior Battalion Leaders and Cadre


August 22, 2014                                    Findings (cont’d)

Objective                                          The observations included in the report were:

The objective of this assessment was to               •	 The Army Medical Department Center & School did not
determine whether the United States Army                 have sufficient full-time, authorized instructor staff to
and the United States Marine Corps had                   provide standardized training for newly assigned leaders
policies and procedures in place to ensure               and cadre to WTUs, as well as Community-Based Warrior
the selection and training of appropriately              Transition Units (CBWTUs). The lack of a dedicated
qualified personnel to fill leadership and cadre         instructor staff resulted in training program course
positions for Army Warrior Transition Units              inconsistency and lack of continuity, and has limited
(WTUs) and Marine Corps Wounded Warrior                  development of training program enhancements that
Battalions (WWBns).                                      would have better prepared leaders and cadre for their
                                                         challenging WTU assignments.
This is a follow-on assessment. During our
six Wounded Warrior site visits and previously        •	 The Marine Corps Wounded Warrior Regiment relied on
issued assessment reports, we noted systemic             Marine Reserve Individual Mobilization Augmentee (IMA)
issues and challenges with selection and                 personnel to staff the majority of senior non-commissioned
training of WTU and WWBn leaders and cadre.              officer (SNCO) and non-commissioned officer (NCO)
This report addresses these systemic issues.             leadership positions in WWBns and detachments. This
                                                         resulted in the potential for inconsistent and unpredictable
                                                         staffing levels.
Findings
                                                      •	 The selection of enlisted Active Component Marines
This assessment identified several challenges
                                                         for assignment to WWBns and detachment leadership
and issues which, if resolved by Army and
                                                         positions did not include medical and legal screening
Marine Corps leadership, will enhance the
                                                         or a formal interview and review process. The lack of
overall effectiveness of the WTU and WWBn
                                                         these processes may not have ensured the Marine Corps
leaders and cadre selection process and
                                                         leaders that the most appropriately qualified personnel
enhance their effective and timely training,
                                                         were selected for WWBn positions.
thereby providing them the qualifications
to carry out their responsibilities in support
of the recovery and transition of military
personnel assigned to these units.




Visit us at www.dodig.mil


                                                                       DODIG-2014-100 (Project No. D2010-D00SPO-0209.006) │ i
                                                          FOR OFFICIAL USE ONLY

                                       Results in Brief
                                       Assessment of DoD Wounded Warrior Matters: Selection
                                       and Training of Warrior Transition Unit and Wounded
                                       Warrior Battalion Leaders and Cadre




  Recommendations                                                        •	 develop policy and procedures to extend the
                                                                            standard length of Wounded Warrior Battalion
  We made recommendations to the Deputy Commandant                          Reserve IMA assignments to ensure greater stability
  for Manpower and Reserve Affairs; Commander, U.S. Army                    in force structure, staff continuity, and to sustain
  Medical Command; and Commander, Warrior Transition                        the mission;
  Command to:
                                                                         •	 establish a standard formalized screening and
                                                                            selection process for enlisted Active Component
  Army                                                                      Marines filling WWBn positions similar to the process
      •	 take action to remedy instructor staffing for the
                                                                            currently used for Reserve IMA Marines; and
         WTU Cadre Training Program in response to the
         October 25, 2013, memorandum from the Assistant                 •	 establish a standard review process whereby
         Secretary of the Army (Manpower and Reserve                        regiment and battalion leaders can interview
         Affairs), subject “Validation of the U.S. Army                     potential Enlisted Active Component Marine WWBn
         Medical Department Center & School Manpower                        candidates to ensure they are the “best fit” and
         Organizational Study,” and                                         most qualified to better serve the Marines in
                                                                            the WWBns.
      •	 ensure appropriate instructor staffing levels for the
         WTU Cadre Training Program are maintained to
         meet mission requirements.                                   Management Comments and
                                                                      Our Responses
  Marine Corps                                                        The Department of the Army, Office of the Surgeon General
      •	 modify the Table of Organization and Equipment               and Assistant Deputy Commandant for Manpower and
         to appropriately reflect the required WWBn                   Reserve Affairs provided comments to this report.
         leaders and cadre manning levels needed to sustain           Management concurred with all the recommendations.
         the mission;                                                 However, we request that the Deputy Commandant for
                                                                      Manpower and Reserve Affairs provide the final analysis
      •	 revalidate whether the manning precedence level
                                                                      and results of the Wounded Warrior Regiment manning
         category of WWBn East and WWBn West should
                                                                      and staffing review. We should receive comments by
         be changed in the Commandant of the Marine
                                                                      September 19, 2014. The full reproduction of the comments
         Corps precedence levels of manning and staffing;
                                                                      received is included in this report.
      •	 develop risk mitigation plans, procedures, and
         contingencies for Wounded Warrior Battalion active
         and Reserve forces to ensure WWBn leadership
         billets are not largely dependent on Reserve IMA
         authorizations;



ii │ DODIG-2014-100 (Project No. D2010-D00SPO-0209.006)
Recommendations Table
                                                     Recommendations             No Additional
                        Management                   Requiring Comment         Comments Required
Deputy Commandant for Manpower and Reserve Affairs   2.a, 2.b, 2.c             2.d, 3.a, 3.b
Commander, U.S. Army Medical Command                                           1.a
Commander, Warrior Transition Command                                          1.b
Total recommendations in this report: 8

Please provide comments by September 19, 2014.




                                                            DODIG-2014-100 (Project No. D2010-D00SPO-0209.006) │ iii
                                  INSPECTOR GENERAL
                                 DEPARTMENT OF DEFENSE
                                 4800 MARK CENTER DRIVE
                              ALEXANDRIA, VIRGINIA 22350-1500


                                                                               August 22, 2014

MEMORANDUM FOR DISTRIBUTION

SUBJECT:	 Assessment of DoD Wounded Warrior Matters: Selection and Training of
	         Warrior Transition Unit and Wounded Warrior Battalion Leaders and Cadre
	         (Report No. DODIG-2014-100)

The Deputy IG, Special Plans and Operations (SPO) is providing this report for your information
and appropriate action. This is the eighth Wounded Warrior report published by the DoD IG
in the past four years. This report provides an assessment of selection and training of
United States Army Warrior Transition Unit and United States Marine Corps’ Wounded Warrior
Battalion leaders and cadre.

We considered management comments to a draft of this report when preparing the final
report. Comments from the Department of the Army, Office of the Surgeon General, and
Assistant Deputy Commandant for Manpower and Reserve Affairs were responsive. However,
we request that the Deputy Commandant for Manpower and Reserve Affairs provide the final
analysis and results of the Wounded Warrior Regiment manning and staffing review.

Please provide comments that conform to the requirements of DoD Directive 7650.3.
If possible, send your comments in electronic format (Adobe Acrobat file only) to
SPO@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the
actual signature. If you arrange to send classified comments electronically, you must send
them over the SECRET Internet Protocol Router Network (SIPRNET). We should receive
your comments by September 19, 2014.

Your comments should state whether you agree or disagree with the observation[s] and
recommendation[s]. If you agree with our recommendations, clearly state that you “concur”
or “concur with comment” and describe what actions you have taken or plan to take to
accomplish the recommendations and include the completion dates of your actions. Send
copies of documentation supporting the actions you may have already taken. If you disagree
with the recommendations or any part of them, clearly state that you “non-concur,” give
specific reasons why you disagree, and propose alternative action if appropriate.




                                                                                         DODIG-2014-100 │ v
           We appreciate the courtesies extended to the staff.        Please direct any questions to
           Dr. Elias G. Nimmer (703) 604-9114 (DSN 664-9114)/elias.nimmer@dodig.mil. We will provide
           a formal briefing on the results, if management requests.




           	                                           Kenneth P. Moorefield
           	                                           Deputy Inspector General
           	                                             Special Plans and Operations




vi │ DODIG-2014-100
Distribution:

Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense for Health Affairs
	       Warrior Care Policy
Commandant of the Marine Corps
Deputy Commandant for Manpower and Reserve Affairs
Commander, Wounded Warrior Regiment
	       Medical Officer of the Marine Corps
Office of the Surgeon General/Commander, U.S. Army Medical Command
Commander, U.S. Army Medical Department Center and School
Commander, Warrior Transition Command




                                                                     DODIG-2014-100 │ vii
Contents
Introduction______________________________________________________________________________1
Background_______________________________________________________________________________________1
Objective__________________________________________________________________________________________2
Scope______________________________________________________________________________________________2
Methodology_ ____________________________________________________________________________________3

Significant Progress_________________________________________________________________5
Observation 1. Lack of Dedicated Army Medical
  Department Center & School Instructor Staffing_ ________7
Observation 2. Shortcomings in Marine Corps
  Wounded Warrior Battalion Assignment Process _____ 13
Observation 3. Shortcomings in Marine Corps
  Wounded Warrior Battalion Selection Process___________ 19
Appendixes
Appendix A. Scope and Methodology________________________________________________________ 23
Appendix B. Prior Coverage__________________________________________________________________ 25
Appendix C. Army Structure__________________________________________________________________ 27
Appendix D. U.S. Marine Corps Wounded Warrior Regiment______________________________ 32
Appendix E. Applicable Criteria______________________________________________________________ 37

Management Comments_____________________________________________________ 39
Department of the Army, Office of Surgeon General_ _______________________________________ 39
Deputy Commandant for Manpower and Reserve Affairs __________________________________ 42

Acronyms and Abbreviations______________________________________________ 45




                                                                                                       DODIG-2014-100 │ ix
                                                                                                                              Introduction




Introduction
Background
The Military Services formed the Wounded Warrior programs because of the
increased number of service member casualties incurred during military operations
in Iraq and Afghanistan. Initial programs were formed as early as 2004 and 2005.
The programs further developed following media and congressional interest
over Wounded Warrior issues identified at Walter Reed Army Medical Center1 in
February 2007.            Since then, there have been many oversight hearings, special
commissions, task forces, and reports related to Wounded Warrior recovery,
rehabilitation, and reintegration.

While the criteria for admission into Wounded Warrior programs vary somewhat
by Service, there are similarities across these programs.                                   All programs assist
Wounded Warriors who are navigating through the complex DoD and Department
of Veterans Affairs (VA) disability evaluation processes.                             They all provide career,
education, and readiness transition support.                             Most provide care coordination
and/or       non-clinical       case      management.              The      Army       provides       clinical     case
management within the Warrior Transition Unit while the other Services provide
it through the medical treatment facility. The overall objective of Wounded Warrior
programs is to “ensure wounded, ill, injured and transitioning service members
receive high quality care and seamless transition support.”2

In June 2010, the DoD IG’s Office of Special Plans and Operations began a series of
site assessment visits to Army Warrior Transition Units (WTUs) and Marine Corps
Wounded Warrior Battalions (WWBns).                          The purpose was to “determine whether
DoD programs for the care, management, and transition of recovering service
members wounded during deployment in Operation Iraqi Freedom or Operation
Enduring Freedom were managed effectively and efficiently.”




	1	
     The 2005 Defense Base Realignment and Closure (BRAC) Commission recommended that DoD establish a new Walter
    Reed National Military Medical Center (WRNMMC) on the site of the current National Naval Medical Center (NNMC) in
    Bethesda, Maryland. The last patients at Walter Reed Army Medical Center were transported August 27, 2011 to the new
    location at WRNMMC.
	2	
     DoD Office of Warrior Care Policy (http://warriorcare.dodlive.mil/about/).




                                                                                                                           DODIG-2014-100 │ 1
Introduction



                 The DoD IG has published seven reports to date related to Wounded Warrior programs
                 based on site assessments of four Army and two Marine Corps Wounded Warrior units.

                          •	 Fort Sam Houston, Texas; March 17, 2011,

                          •	 Fort Drum, New York; September 30, 2011,

                          •	 Camp Lejeune, North Carolina; March 30, 2012,

                          •	 Wounded Warrior Battalion - West Headquarters and Southern California
                              Units; August 22, 2012,

                          •	 Joint Base Lewis-McChord, Washington; May 31, 2013,

                          •	 Fort Riley, Kansas; August 6, 2013, and

                          •	 Managing Risks of Multiple Medications; February 21, 2014.

                 Our reports can be viewed at http://www.dodig.mil/pubs/index.cfm.

                 We noted systemic issues and challenges with the selection and training of WTU and
                 WWBn leaders and cadre at the four Army and two Marine Corps Wounded Warrior
                 units visited.


                 Objective
                 The objective of this assessment was to determine whether the United States Army
                 and the United States Marine Corps had policies and procedures in place to ensure
                 the selection and training of appropriate personnel to fill leadership and cadre
                 positions within the Army WTUs and Marine Corps WWBns.


                 Scope
                 We conducted this assessment from March 2012 through December 2013.             It
                 specifically addresses the selection and training of Army WTU and Marine Corps
                 WWBn leaders and cadre based on data collection and as observed during
                 fieldwork.    This assessment also draws conclusions from observations previously
                 made in DoD IG reports about policies and practices of the United States Army and
                 the United States Marine Corps resulting from visits to four Army and two Marine
                 Corps Wounded Warrior units.




2 │ DODIG-2014-100
                                                                                         Introduction



Methodology
We reviewed documents such as DoD directives and instructions; Service-level
policies and practices such as Army regulations, policy memorandums, All Army
Activities (ALARACTs), fragmentary orders (FRAGOs), and execution orders (EXORDs),
and United States Marine Corps orders (MCOs) pertinent to the topics of selection
and training of leaders and cadre in the Wounded Warrior population. We reviewed
information from previous Wounded Warrior assessments. We obtained information
through research and requests for information (RFIs) regarding current selection
and training practices. Additionally, we conducted semi-structured interviews using
a judgmental sample of selected cohorts of Army WTU and Marine Corps WWBn
officers and enlisted personnel in leadership positions, and wounded, ill, and injured
Soldiers and Marines in WTUs and WWBns.




                                                                                     DODIG-2014-100 │ 3
                                                                                                                 Significant Progress




Significant Progress
United States Army Warrior Transition Command
During our assessment, we identified significant issues in the selection and
assignment of the “best fit” and most qualified Soldiers to fill WTU cadre positions.
As a result of our assessment in this area and discussions on-site with Wounded
Warrior Transition Command (WTC) and WTU leaders, the Army WTC subsequently
issued stricter and more consistent detailed guidance on the identification, screening,
selection, and assignment of personnel for WTU cadre positions.                                   It is too early
to measure the effectiveness of the guidance issued January 15, 2014,3 but the new
direction taken by WTC meets our previous concerns regarding this issue.


United States Marine Corps - Wounded Warrior
Regiment
During our assessment, we identified that the Wounded Warrior Regiment (WWR)
lacked a more formalized training program for the WWBn Section Leaders.                                         As a
result of our assessment in this area and discussions on site with WWR and WWBn
leaders, the United States Marine Corps WWR subsequently issued stricter and
more consistent detailed guidance on WWBn Section Leader training.                                        It is too
early to measure the effectiveness of the guidance issued October 21, 2013,4 but
the formalization of WWBn Section Leader training by the WWR meets our
previous concerns regarding this issue.




	3	
    Warrior Care and Transition Program (WCTP) Policy Memo 14-001, “Policy Memorandum - Warrior Transition Unit (WTU)/
    Community Based Warrior Transition Unit (CBWTU) Cadre Assignments,” January 15, 2014.
	4	
    Wounded Warrior Regiment Policy Letter 3-13, “Wounded Warrior Regiment Section Leader Training,” October 21, 2013.




                                                                                                                         DODIG-2014-100 │ 5
                                                                                                                                   Observation 1




Observation 1
Lack of Dedicated Army Medical Department Center &
School Instructor Staffing
The Army Medical Department Center & School (AMEDDC&S)5 did not have
full-time, authorized instructor staff to provide standardized training for newly
assigned leaders and cadre to Warrior Transition Units (WTUs), as well as to
Community-Based Warrior Transition Units (CBWTUs). 6

This occurred because the AMEDDC&S has not received a Table of Distribution
and Allowances (TDA)7 authorization for designated full-time instructor positions,
which were previously determined to be cost prohibitive.                                         Rather, the program
relied on civilian and military personnel detailed from other Army agencies serving
as trainers in secondary assignments.

The lack of a dedicated instructor staff resulted in training program course
inconsistency and lack of continuity, and has limited development of program
enhancements               in    the     form      of     more       hands-on,        small-group,          and      realistic
scenario-based training that would have better prepared leaders and cadre for
their challenging WTU assignments.

	 5	
       The Army Medical Department Center & School (AMEDDC&S) located at Joint Base San Antonio, Fort Sam Houston, Texas.
	6	
       Community Based Warrior Transition Units will be inactivated and replaced by Community Care Units (CCUs) as part of
       the Warrior Care and Transition Program Force Structure Implementation, Headquarters, US Army Medical Command,
       Operation Order, 14-24, February 2014.
	 7	
       TDA is an authorization document developed for non-doctrinal units that prescribes the organizational structure and the
       personnel and equipment requirements and authorizations of a military unit to perform a specific mission for which there
       is no appropriate Table of Organization and Equipment.




Applicable Criteria (Appendix E)
FRAGO 3 to Operational Order (OPORD) 07-055, “MEDCOM Implementation of the
Army Medical Action Plan (AMAP),”8 June 2007.

Warrior Care and Transition Program (WTCP) Policy Memo, 14-001, “Policy
Memorandum                -     Warrior      Transition         Unit     (WTU)/Community                 Based       Warrior
Transition Unit (CBWTU) Cadre Assignments,” January 15, 2014.


	 8	
       In the 2008 Army Posture Statement Information Paper, the Army Medical Action Plan (AMAP) establishes an integrated
       and comprehensive continuum of care and services for Warriors in Transition. The AMAP was developed in 2007, and
       included ten “Quick Wins” for implementation across the Army. Item six identifies development of training and doctrine.




                                                                                                                                  DODIG-2014-100 │ 7
Observation 1



                 Background
                 The AMEDDC&S is the only mandated WTU cadre training site for the Army.
                 Under AMEDDC&S, the Academy of Health Sciences (AHS) is the medical education
                 and training campus, conducting 315 programs of instruction. In August 2007, the
                 AHS was tasked with the development and deployment of the WTU cadre training
                 requirement.             During the initial planning stages of the training program, AHS
                 conducted a business case analysis9 to determine how best to meet the staffing
                 requirements of the program.

                 Based on their initial analysis and training throughout, AHS concluded it would
                 be cost prohibitive to have a staff of full-time instructors at the AHS.                                             Therefore,
                 the AHS decided to use a model that included borrowing subject matter experts (SMEs)
                 from other agencies to teach specific course material.


                 Discussion
                 The AMEDC&S WTU Cadre Training Program lacked dedicated instructor staff to
                 provide standardized training for newly assigned leaders and cadre.

                 The current TDA for the AMEDDC&S WTU Cadre Training Program established the
                 program director position as the only authorized permanent staff position for the
                 program, functioning as both the department head and program director. Additional
                 staffing was comprised of a contracted administrative specialist and senior training
                 specialist, 2 mobilized SNCOs, and 30 to 40 SME instructors detailed from their
                 primary assignments at the AHS, where they performed their principal day-to-day
                 duties. The 30 to 40 detailed instructors were on loan only temporarily to teach
                 courses in the WTU Cadre Training Program.

                 In our discussions with WTC leaders and WTU cadre training staff, they indicated
                 that a major impediment to further progress in the AMEDDC&S’s WTU Cadre Training
                 Program was the lack of sufficient, dedicated instructor staff and resources to
                 effectively operate a more robust training program that could appropriately support
                 the size and needs of in-resident cadre students.




                 	9	
                       A business case analysis is the evaluation of alternative solutions for obtaining best value, while achieving operational
                       requirements balancing cost, schedule, performance, and risk.




8 │ DODIG-2014-100
                                                                                                                                  Observation 1



Warrior Transition Unit Cadre Training Program Facts
Over the past 5 years, the AMEDDC&S has conducted 10 classes per year, with
an average class size of approximately 100 students.                                     From 2009 through the
4th
       Quarter of FY 2013, a total of 4,731 students graduated from the program.
The January 15, 2014, “WTU/CBWTU Cadre Assignments Policy Memorandum”10
established requirements for cadre to attend training preferably before, but not
later than 60 days after assuming their WTU cadre duties.                                              This reinforces
the requirement for a larger, fully dedicated instructor staff to manage the larger
class sizes.


Lack of Sufficient Dedicated Instructor Positions and Impact on
Student Training
Based on class size alone, the high student-to-instructor ratio limited the director’s
ability to conduct small group training, such as role playing and scenario-driven
team exercises.           Such training would expose prospective WTU leaders and cadre
students to a range of situations they would likely encounter, and to techniques
for managing those situations appropriately.                                 Having a dedicated staff with
experience to simulate such scenarios and conduct small group training would
greatly enhance the effectiveness of the training.

In previous DoD IG Wounded Warrior reports,11 WTU leaders and cadre indicated
that many of the Soldiers assigned to the WTUs had Post-Traumatic Stress Disorder
(PTSD)12/Traumatic Brain Injury (TBI) and behavioral health issues. At one location,
WTU leaders estimated that 60 percent of WTU Soldiers had behavioral health
issues, and an estimated 40 percent of Soldiers had PTSD and/or TBI symptoms.

Given the prevalence of these medical conditions, WTB leaders and staff recognized
the need for additional training to more properly prepare them for their challenging
role in managing the diverse needs of the Soldiers assigned to the WTUs. Additional
training topics proposed included:




	10	
      Warrior Care and Transition Program (WCTP) Policy Memo 14-001, “Policy Memorandum - Warrior Transition Unit (WTU)/
     Community Based Warrior Transition Unit (CBWTU) Cadre Assignments,” January 15, 2014.
	11	
      Report No. SPO-2011-010, “Assessment of DoD Wounded Warrior Matters - Fort Drum,” September 30, 2011, and Report
     No. DoDIG-2013-087, “Assessment of DoD Wounded Warrior Matters - Joint Base Lewis-McChord,” May 31, 2013.
	12	
      Post-traumatic stress disorder (PTSD) is a mental health condition that is triggered by a terrifying event. Symptoms may
     include flashbacks, nightmares and severe anxiety, as well as uncontrollable thoughts about the event.




                                                                                                                                 DODIG-2014-100 │ 9
Observation 1



                         •	 increased behavioral health familiarization training and incorporated role
                            playing scenarios,

                         •	 team building exercises,

                         •	 staff stress reduction and resiliency training,

                         •	 administrative and medical management issues, and

                         •	 communication and counseling skills.

                 A dedicated team of permanently assigned instructors, as proposed, would enable
                 the program director to incorporate these worthy recommendations.


                 Army Planning for a Full-time Staff
                 In FY 2012, U.S. Army Medical Command (MEDCOM) completed a manpower review
                 and analysis that highlighted the requirement for increased staffing based on
                 the high instructor-to-student ratios and the lack of an Army-approved TDA
                 for the WTU Cadre Training Program.

                 The manpower review concluded that AHS required at least 13 dedicated staff
                 instructor positions for the WTU Cadre Training Program.       On October 25, 2013,
                 the Assistant Secretary of the Army (Manpower and Reserve Affairs) issued a
                 memorandum regarding “Validation of the AMEDDC&S Manpower Organizational
                 Study.” The response validated 11 of the 13 required WTU cadre training positions.

                 As of May 20, 2014, the U.S. Army Manpower Analysis Agency (USAMAA) and
                 the AMEDC&S were still working on a solution for the dedicated staff instructor
                 positions congruent with the results of the manpower study.


                 Conclusion
                 Previous DoD IG Wounded Warrior reports identified the need for focused training to
                 equip WTU leaders and cadre with the right skills needed to deal effectively with the
                 unique WTU mission challenges. Training of WTU leaders and cadre at the AMEDDC&S
                 continues to improve and evolve. However, inadequate staffing and the need for a
                 TDA authorizing the necessary full-time training instructor staff positions remains a




10 │ DODIG-2014-100
                                                                                      Observation 1



significant impediment to further progress needed in the development of the WTU
Cadre Training Program.

The lack of a dedicated instructor staff has prevented or limited the incorporation
of scenario-based training, such as role playing, hands-on training, and small
group sessions into the course of instruction, improvements which would enable
cadre to be better prepared to effectively cope with the unique WTU operational
environment and assist Soldiers and their families.


Recommendations
Recommendation 1.a
Commander, U.S. Army Medical Command, take action to meet the instructor
staffing requirements for the Warrior Transition Unit Cadre Training Program
in response to the October 25, 2013, memorandum from the Assistant Secretary
of the Army (Manpower and Reserve Affairs), subject “Validation of the
U.S. Army Medical Department Center & School Manpower Organizational Study.”


Commander, U.S. Army Medical Command Comments
Commander, U.S. Army MEDCOM concurred with comment to the recommendation.
Based on additional data and information submitted by the AMEDDC&S, the
U.S. Army Manpower Analysis Agency approved 13 instructor requirements for the
Department of Warrior Transition Units (WTU Cadre Training Program).


Our Response
Comments from the Commander, U.S. Army MEDCOM are responsive and the actions
meet the intent of the recommendation. No additional comments are required.


Recommendation 1.b
Commander, Warrior Transition Command, in coordination with Commander,
Army Medical Department Center & School, assess instructor-to-student staffing
ratios for Warrior Transition Unit Cadre Training Program to identify instructor




                                                                                  DODIG-2014-100 │ 11
Observation 1



                 shortfalls and initiate action to request formal manpower reviews as needed
                 to meet mission requirements.


                 Commander, Warrior Transition Command Comments
                 Commander, WTC concurred with comment to the recommendation. The WTC and
                 AMEDDC&S continue to work together to assess WTU Cadre Training Program needs
                 and initiate actions to meet mission requirements.


                 Our Response
                 Comments from the Commander, WTC are responsive and the actions meet the
                 intent of the recommendation. We acknowledge the ongoing efforts by the WTC and
                 AMEDDC&S to ensure appropriate instructor staffing ratios are maintained and
                 that training is focused to equip WTU leaders and cadre with the right skills to deal
                 effectively with the unique WTU mission challenges. We may choose to assess the
                 WTU Cadre Training Program instructor-to-student staffing ratios and its impact to the
                 overall WTU Cadre Training Program effectiveness in the future.




12 │ DODIG-2014-100
                                                                                                                                     Observation 2




Observation 2
Shortcomings in Marine Corps Wounded Warrior
Battalion Assignment Process
Both Wounded Warrior Battalions (WWBns) - East and West - relied on Reserve
Individual Mobilization Augmentee (IMA)13 Marines to staff the majority of SNCO and
NCO leadership positions.

This occurred because of IMA staff turnover and personnel shortages. The use of
Reserve IMAs under Overseas Contingency Operations (OCO) funding was a temporary
solution, and was dependent on the willingness of IMA volunteers and the availability
of annual OCO funds.

As a result, the number of personnel serving in WWBn leadership positions was
unpredictable and unlikely to provide consistent support for the recovery, rehabilitation,
and reintegration of wounded, ill, and injured Marines.

	13	
       Individual Mobilization Augmentees (IMAs) are individual selected Reservists who receive training and are pre-assigned
       to an active component organization billet that must be filled to meet the requirements of the organization to support
       mobilization (including pre-and/or post-mobilization) requirements across the spectrum of military operations and training.




Applicable Criteria (Appendix E)
Marine Corps Order 5320.12H, “Precedence Levels for Manning and Staffing,”
June 4, 2012.

Marine Corps Order 1001R.1K, “Marine Corps Reserve Administrative Management
Manual (MCRAMM),” March 22, 2009.

Marine Corps Order 1001.62A, “Individual Mobilization Augmentee (IMA) Program,”
January 17, 2012.


Background
The Deputy Commandant for Manpower and Reserve Affairs (DC M&RA), is
responsible for staffing units based on the priorities established by the Commandant
of the Marine Corps (CMC).                              The DC M&RA establishes staffing goals by
precedence levels, current inventories, and in accordance with Marine Corps policies.




                                                                                                                                DODIG-2014-100 │ 13
Observation 2



                 The four distinct unit manning precedence level categories are depicted in Table 1.
                 The WWR, WWBn-East, and WWBn-West fall within the Priority Command category.
                 The CMC minimum manning level for Priority Commands is 95 percent for both
                 officers and enlisted Marines, subject to personnel available.                                    Grade and Military
                 Occupational Specialty (MOS) substitutions may be used to facilitate staffing of billets
                 if the assignable personnel are not available.

                 During October 2013, the WWBn manning levels fell below the CMC minimum
                 manning level of 95 percent for a Priority Command. Both WWBn-East and WWBn
                 West manning levels for officers and enlisted were between 74 and 85 percent. 14

                 Table 1. United States Marine Corps Precedence Levels for Manning and Staffing
                        Precedence Levels                                                              Minimum Manning Level
                                                                   Mission
                            Categories                                                                     Percentage (%)
                      Excepted Command               Fill a vital or mandated need              100 for both Officers and Enlisted
                                                     Integral to current operational            95 for Officers and
                      OpFor Command                  needs                                      97 for Enlisted
                                                     While not excepted or
                                                     specifically integral to the
                      Priority Command                                                          95 for both officers and enlisted
                                                     operating forces, serve a
                                                     significant function
                      Proportionate Share            Those not categorized within               92 for Officers and
                      Command                        the other three categories                 94 for Enlisted

                 Source: Marine Corps Order 5320.12H, June 4, 2012


                 Discussion
                 WWBns depend on Reserve IMA staffing to provide leadership, support, and
                 direction to wounded, ill, and injured Marines.


                 Wounded Warrior Battalion - East and West Staffing Structure
                 The United States Marine Corps Wounded Warrior Regiment (WWR) has a
                 relatively small, active duty structure with the majority of personnel assigned to the
                 two WWBns.             The October 21, 2013, Unit Table of Organization and Equipment
                 (TO&E)     15
                                 reports for WWBn-East and WWBn-West required a large number of the
                 positions to be staffed by IMA Reserve officers and enlisted. However, in our review
                 of WWBn-East and WWBn-West “on hand” staff, we noted an increase in the number

                 	14	
                        Table 2 and Table 3 illustrate Authorized and Assigned Wounded Warrior Battalion East and West staff as of
                       October 28, 2013. Information obtained from Wounded Warrior Regiment.
                 	 15	
                        Table of Organization and Equipment (TO&E) is a table listing the number and duties of personnel and the major
                       items of equipment authorized for a military unit.




14 │ DODIG-2014-100
                                                                                         Observation 2



of active duty officer and enlisted Marines filling the positions within the WWBns,
partly due to an unanticipated increase in wounded, ill, and injured Marines, and
partly due to an inability to staff the Reserve IMA Marine positions on the TO&E.
At the request of the WWR, the DC M&RA assigned additional active duty Marines
to temporarily augment the active duty structure to meet mission requirements
and to fill some of the vacant positions that would have been filled by Reserve IMA
Marines. However, the additional surge of active duty personnel to assist the WWBns
was only a temporary solution since the authorization remained to be filled by
Reserve IMAs.

As of October 28, 2013, the combined active duty and Reserve IMA authorization
strength for WWBn-East and WWBn-West was 280. Reserve IMAs were authorized
251 of those positions while active duty was responsible for 26 of them.          The
IMAs were only able to fill 121 of its assigned 251 positions for a fill rate of under
50 percent.     Active duty Marines partially augmented this shortage by overfilling
their requirement of 26 positions, assigning 98 personnel to fill the vacant IMA
officer and enlisted positions. Tables 2 and 3 illustrate “authorized and on hand”
WWBn Marine staff in support of the WWBn-East and WWBn-West, and depict
the imbalance in the “authorized and on hand” ratio between active duty and
Reserve IMA categories.

Table 2. Authorized/On Hand Wounded Warrior Battalion-East Staff*
    Precedence               Active           Active Reserve        Reserve (IMA)
 Levels Categories     Authorized/On hand   Authorized/On hand   Authorized/On hand
 Marine Officers              5/ 7                 1/ 1                 16/ 8
 SNCO                        6/ 33                 0/ 0                70/ 33
 NCO                         3/ 13                 0/ 0                43/ 26
 Total                       14/ 53                1/ 1                129/ 67

* As of October 28, 2013

Table 3. Authorized/On Hand Wounded Warrior Battalion-West Staff*
    Precedence               Active           Active Reserve        Reserve (IMA)
 Levels Categories     Authorized/On hand   Authorized/On hand   Authorized/On hand
 Marine Officers              5/ 7                 1/ 1                 13/ 7
 SNCO                        5/ 32                 0/ 0                70/ 25
 NCO                          2/ 6                 1/ 1                39/ 22
 Total                       12/ 45                2/ 2                122/ 54

* As of October 28, 2013




                                                                                      DODIG-2014-100 │ 15
Observation 2



                 The increase of “on hand” active duty personnel is significant and warrants
                 further review of the TO&E to determine if the total authorization of active duty
                 personnel is adequate to meet the WWBn mission requirements. The TO&E relied
                 on a large number of Reserve IMA personnel to fill its spaces, but evidently the
                 Reserves have difficulty identifying a sufficient number of personnel to assign to
                 them and keep them filled.

                 To effectively manage the manpower process, the Marine Corps must reevaluate
                 the TO&E to determine the appropriate force structure needed to maintain, sustain,
                 and meet WWBn mission requirements.

                 Risk mitigation procedures must be developed to ensure WWBn authorizations
                 are not largely dependent on Reserve IMA personnel and that provisions are in
                 place for a proportioned force structure that maintains or exceeds the minimum
                 manning level established for a Priority Command, to include, an adequate ratio
                 of active duty personnel as the Reserve IMAs availability decreases.


                 Reserve Individual Mobilization Augmentee Funding
                 Reserve IMAs on mobilization orders are funded from 1-year appropriations. When
                 funds expire at the end of the fiscal year, and/or in the absence of a new fiscal year
                 annual appropriation (that is, during funding under “continuing resolution”),16
                 the Reserve IMA is demobilized, potentially leaving the position unfilled and the
                 WWBn understaffed.                   This creates a disincentive for Reserve IMAs to volunteer
                 for a 1-year assignment with WWBns.

                 We acknowledge the funding and potential manning constraints imposed on the
                 Marine Corps by the uncertain availability of Reserve IMA Marines to fill WWBn
                 positions. However, the unpredictability of annual funding and limitation on funds
                 imposed by 1-year appropriations has the distinct potential to cause significant
                 staffing turbulence and to impact the continuity and trust established between
                 the section leader and his or her wounded, ill, and injured Marines, impeding
                 Wounded Warrior recovery.                         The reliance on Reserve IMAs to staff a large
                 percentage of leadership positions places the WWR at risk for not having the
                 available staffing to maintain the minimum manning levels required to support
                 the wounded, ill, and injured Marines assigned to the WWBns and detachments.



                 	16	
                        Random House Dictionary, 2013, defines continuing resolution as legislation enacted by Congress to allow Government
                        operations to continue until the regular appropriations are enacted-used when action on appropriations is not completed
                        by the beginning of a fiscal year.




16 │ DODIG-2014-100
                                                                                          Observation 2



Conclusion
Without the appropriate funding and provisions to maintain adequate and stable
staffing levels of both active duty and Reserve IMA authorizations, the WWBns
and detachments are potentially at risk for being understaffed. The DC M&RA, and
WWR must continually account for turnover, unplanned losses, and the cyclical
nature of Reserve IMA manpower to balance and meet WWBn mission requirements.
The past reliance on Reserve IMAs to fill critical WWBn leadership positions,
questionable ability to fill current IMA billets, as well as uncertain OCO funding
for Reserve IMAs is problematic, and if left unresolved could negatively impact
the recovery, rehabilitation, and reintegration of wounded, ill, and injured Marines.


Recommendations
Recommendation 2
The Deputy Commandant for Manpower and Reserve Affairs should:

        a.	 Modify the Table of Organization and Equipment to appropriately
           reflect the required Wounded Warrior Battalion leaders and cadre
           manning levels to sustain the mission.

        b.	 Revalidate whether the manning precedence level category of Wounded
           Warrior Battalion - East and Wounded Warrior Battalion - West should
           be changed in the Commandant of the Marine Corps Precedence
           Levels for Manning and Staffing.

        c.	 Develop risk mitigation plans, procedures, and contingencies for
           Wounded Warrior Battalion active duty and Reserve forces to ensure
           Wounded Warrior Battalion leadership billets are not largely dependent
           on Reserve Individual Mobilization Augmentee authorizations.

Deputy Commandant for Manpower and Reserve Affairs Comments
The Assistant Deputy Commandant for Manpower and Reserve Affairs concurred
with comment to Recommendations 2.a, 2.b, and 2.c. An Operational Planning Team
has been directed to identify the future staffing requirements of the WWR and
subordinate elements as determined by the expected population of future wounded,
ill, or injured Marines.   The DoD IG recommendations, and the conclusions and
recommendations from the Operational Planning Team will be submitted to the
DC M&RA for decision.




                                                                                        DODIG-2014-100 │ 17
Observation 2



                 Our Response
                 Comments from the Assistant Deputy Commandant for Manpower and Reserve
                 Affairs to Recommendations 2.a, 2.b, and 2.c are responsive and the actions meet the
                 intent of the recommendations. However, in response to the final report, we request
                 that the DC M&RA provide the final analysis and or update on the results of the
                 WWR manning and staffing review.

                            d.	Develop policy and procedures to extend the standard length
                              of Wounded Warrior Battalion Reserve Individual Mobilization
                              Augmentee assignments to 2 years, to ensure greater stability in
                              force structure, staff continuity, and to sustain the mission.

                 Deputy Commandant for Manpower and Reserve Affairs Comments
                 The Assistant Deputy Commandant for Manpower and Reserve Affairs concurred
                 with comment to Recommendation 2.d. The Assistant Deputy Commandant emphasized
                 that efforts are made to retain high performing Reserve personnel each fiscal
                 year depending on the availability of funding and the individual reservists’ personal
                 desires or service limitations. The Assistant Deputy Commandant commented that
                 no action will be taken in response to the recommendation.


                 Our Response
                 Comments from the Assistant Deputy Commandant for Manpower and Reserve Affairs
                 are responsive. We will track this process as part of the final Operational Planning
                 Team review of WWR manning and staffing noted above in Recommendations 2.a, 2.b,
                 and 2.c.




18 │ DODIG-2014-100
                                                                                                                                      Observation 3




Observation 3
Shortcomings in Marine Corps Wounded Warrior
Battalion Selection Process
Enlisted Active Component Marines were assigned to WWBn and detachment
leadership positions, but not all possessed the adequate experience, maturity, or
compassion for the assignment.

This occurred because the Marine Corps used general assignment procedures
which did not take account of the unique challenge inherent in assignment to the
WWBn.             Additionally, WWBn leaders did not have the opportunity to screen and
interview Enlisted Active Component Marines to ensure they were the “best fit” and
most qualified for the unique WWBn population.

As a result, some Marines received assignment to WWBns who were not sufficiently
qualified to serve in their positions and who could have compromised the recovery,
rehabilitation and reintegration of wounded, ill, and injured Marines.



Applicable Criteria (Appendix E)
Marine Corps Order 5320.12H, “Precedence Levels for Manning and Staffing,”
June 4, 2012.

Marine Corps Order P1300.8R, “Marine Corps Personnel Assignment Policy,”
October 4, 1994.


Background
The Deputy Commandant for Manpower and Reserve Affairs (DC M&RA), has the
responsibility for staffing units based on the priorities established by the CMC. The
DC M&RA establishes staffing goals by precedence levels and personnel availability.


Discussion
The Enlisted Reserve IMA selection process included a review of the Marines’ Reserve
Qualification Summary,17 a medical and legal screening process, and interviews
with WWR and WWBn staff.


	 17	
        Reserve Qualification Summary (RQS) is a form intended to provide boards with an update of military and civilian skills and
        qualifications which may not be included in a members Official Military Personnel Files (OMPF).


                                                                                                                                  DODIG-2014-100 │ 19
Observation 3



                 Inconsistency in Screening and Selection of Wounded
                 Warrior Battalion Enlisted Reserve and Active Component
                 Section Leaders
                 While a more formalized process existed for selection of Marine Reserve IMA
                 section leader candidates, the same formalized process was not applied equally to
                 Enlisted Active Component Marines being considered for WWR, WWBn, or detachment
                 positions. The Marine Corps Policy did not include a medical and legal screening
                 process nor take into consideration certain personal and professional attributes
                 that were important to providing the support and structure warranted for this
                 unique wounded, ill, and injured Marine population.


                 Enlisted Active Component Marine section leaders did not go through a formalized
                 screening and interview process, but were assigned by DC M&RA to the WWBn
                 based on current manning, staffing authorizations, and general assignment policy
                 requirements. A WWBn leader stated that the Enlisted Active Component Marine
                 selection process was “broken,” and that neither the regiment nor the battalion
                 leadership had a say in who received orders for the WWBn assignment. He noted
                 that, “not every Marine is cut out for this type of duty.”

                 WWBn leadership commented that Head Quarters Marine Corps (HQMC) assigned
                 First Sergeants to the WWBns without the WWBn Commander or WWR Sergeant
                 Major having the opportunity to interview or even to provide feedback about the
                 qualifications of the candidate.


                 Length of Assignment
                 During our interviews, WWBn leaders commented that section leaders needed to
                 be assigned a minimum of 2 years to the WWBn. These leaders explained that tour
                 lengths less than 2 years did not provide an effective learning environment, and
                 asserted that due to the unique complexity of Wounded Warrior support operations,
                 it could take at least 3 to 6 months for section leaders to become knowledgeable
                 and proficient as WWBn Section Leaders.

                 Section leaders serve as mentors and develop personal relationships with the
                 wounded, ill, and injured Marines they support, and “having the right balance of
                 compassion and discipline and operational experience was beneficial for WWBn
                 cadre candidates.” This underscores the importance of the stability and length of
                 section leader assignments.




20 │ DODIG-2014-100
                                                                                      Observation 3



Conclusion
Enlisted Active Component Marines were assigned to WWBn leadership positions,
but not all possessed adequate experience, maturity, and compassion required
for this unique assignment.       Marine Corps policy applied general assignment
requirements to Enlisted Active Component Marine WWBn assignments, which did
not include medical or legal screening or take into consideration certain personal
and professional attributes essential for the role of a WWBn Section Leader.
Additionally, WWR and WWBn leaders were not part of the screening and selection
process.

By establishing a standard formalized screening and selection process similar to
the processes used to screen Enlisted Reserve IMA candidates, WWR and WWBn
leaders would have the opportunity to review records and interview Enlisted Active
Component Marines to ensure they were the “best fit” and most qualified to better
serve the Marines in the WWBns.


Recommendations
Recommendation 3
The Deputy Commandant for Manpower and Reserve Affairs should:

           a.	 Establish a standard formalized screening, selection, and assignment
             process for Enlisted Active Component Marines filling Wounded
             Warrior Battalions positions similar to the process currently used
             for Reserve Individual Mobilization Augmentee Marines.

           b.	 Establish a standard review process whereby regiment and battalion
             leaders can interview potential Enlisted Active Component Marine
             WWBn candidates to ensure they are the “best fit” and most qualified
             to better serve the Marines in the Wounded Warrior Battalions.

Deputy Commandant for Manpower and Reserve Affairs Comments
The Assistant Deputy Commandant for Manpower and Reserve Affairs concurred
with comment to Recommendations 3.a and 3.b. The Wounded Warrior Operational
Planning Team will consider development of a screening and assignment process for
Enlisted Active and Reserve Component Marines to WWBn positions. The Operational
Planning Team recommendations will be submitted to the DC M&RA for final decision.




                                                                                  DODIG-2014-100 │ 21
Observation 3



                 Our Response
                 Comments from the Assistant Deputy Commandant for Manpower and Reserve Affairs
                 to Recommendations 3.a and 3.b are responsive. We will track these recommendations
                 as part of the final Operational Planning Team review of WWR manning and staffing
                 noted in Recommendation 2.




22 │ DODIG-2014-100
                                                                                          Appendixes




Appendix A
We conducted this assessment from March 2012 to December 2013 in accordance
with Council of the Inspectors General on Integrity and Efficiency, “Quality Standards
for Inspections and Evaluations,” January 2012.     We planned and performed the
assessment to obtain sufficient and appropriate evidence to provide a reasonable
basis for our observations and conclusions, based on our assessment objectives.


Scope
The objective of the prior overarching “Assessment of DoD Wounded Warrior
Matters” (Project No. D2010-D00SPO-0209.000) was to assess the DoD programs
for the care, management, and transition of recovering service members wounded
during deployment in Operation Iraqi Freedom or Operation Enduring Freedom.
This assessment specifically addresses the selection and training of WTU and
WWBn leaders and cadre based on data collection and as observed during field
work. This assessment also draws conclusions from observations previously made
in DoD IG reports about policies and practices of the United States Army and the
United States Marine Corps resulting from visits to four Army and two Marine Corps
Wounded Warrior units.


Methodology
We stated in our April 16, 2010, project announcement memorandum, as well
as the design plan, that additional assessments on Wounded Warrior Matters may
be conducted as relevant issues were identified.      After multiple site visits and
reports, the issue of leaders and cadre selection and training became a recurring
theme.   We determined that a further evaluation of the selection and training
methodology being used was required.

The objective of this follow-on assessment was to determine whether the
United States Army and the United States Marine Corps had policies and
procedures in place to ensure the selection and training of appropriately qualified
personnel to fill leadership and cadre positions within the Army WTUs and
Marine Corps WWBns.

We reviewed documents such as DoD directives and instructions, Service-level
policies and practices, such as Army regulations, ALARACT, FRAGOs, EXORDs, and
MCOs pertinent to the topics of selection and training of leaders and cadre in the




                                                                                     DODIG-2014-100 │ 23
Appendixes



                 Wounded Warrior population.        We obtained information through research and
                 through RFIs regarding current selection and training practices.          Additionally,
                 we conducted semi-structured interviews, using a judgmental sample of selected
                 cohorts of Army WTU and Marine Corps WWBn officers and enlisted leadership
                 positions, and wounded, ill, and injured Soldiers and Marines in WTUs and WWBns.

                 We also reviewed observations from previous Wounded Warrior Assessments
                 for information on the selection and training of leaders and cadre assigned to fill
                 positions within the WTUs and WWBns.         This review included documentation of
                 site visits, interviews, and briefings to establish the subject matter on the selection
                 and training of leaders and cadre.    We also interviewed the following individuals
                 for this report:

                          •	 WTU Commander, Brooke Army Medical Center;

                          •	 Program Director, AMEDDC&S, WTU Cadre Training Program;

                          •	 former MEDDAC Commander, Irwin Army Community Hospital, Fort Riley,
                             Kansas;

                          •	 WTC Staff and former WTU Commander;

                          •	 Brigade Command Sergeant Major, Fort Hood Warrior Transition Brigade;

                          •	 Deputy Commander, Fort Hood Warrior Transition Brigade;

                          •	 WTC Sergeant Major for G-3/5/7 and former Walter Reed National
                             Military Medical Center, Bethesda, Maryland, Operations Sergeant Major;

                          •	 WWB Commander, Fort Campbell, Kentucky;

                          •	 Battalion Commander, Fort Belvoir, Warrior Transition Battalion;

                          •	 Battalion Command Sergeant Major, Fort Belvoir, Warrior Transition
                             Battalion;

                          •	 Senior Leadership, Warrior Transition Command;

                          •	 Senior Leadership, Wounded Warrior Regiment, Quantico, Virginia; and

                          •	 Wounded Warrior Battalion-East Leadership, Camp Lejeune, North Carolina.


                 Use of Computer-Processed Data
                 We did not utilize any computer processed data in this assessment.




24 │ DODIG-2014-100
                                                                                         Appendixes




Appendix B
Prior Coverage
Several reports were issued during the past 6 years about Department of Defense and
Department of Veterans Affairs (VA) health care services and management, disability
programs, and benefits.   The Government Accountability Office (GAO), Department
of Defense, Department of Defense Inspector General, and the Army Audit Agency
have issued 15 reports specific to DoD Warrior Care and Transition Programs.

Unrestricted GAO reports can be accessed over the Internet at http://www.gao.gov.

Unrestricted DOD IG reports can be accessed at http://www.dodig.mil/PUBS/index.
html.

DoD Recovering Warrior Task Force reports can be assessed http://dtf.defense.gov/
rwtf/.

Army Audit Agency reports are not available over the Internet.


GAO
GAO Report No. GAO-13-5, “Recovering Servicemembers and Veterans: Sustained
Leadership Attention and Systematic Oversight Needed to Resolve Persistent Problems
Affecting Care and Benefits,” November 2012

GAO Report No. GAO-12-129T, “DOD AND VA Health Care: Action Needed to Strengthen
Integration across Care Coordination and Case Management Programs,” October 6, 2011

GAO Report No. GAO-11-572T, “Federal Recovery Coordination Program: Enrollment,
Staffing, and Care Coordination Pose Significant Challenges,” May 13, 2011

GAO Report No. GAO-09-357, “Army Health Care:         Progress Made in Staffing and
Monitoring Units that Provide Outpatient Case Management, but Additional Steps
Needed,” April 20, 2009


DoD
Department of Defense Recovering Warrior Task Force, 2012-2013 Annual Report,
September 3, 2013




                                                                                    DODIG-2014-100 │ 25
Appendixes



                 Department of Defense Recovering Warrior Task Force, 2011-2012 Annual Report,
                 August 31, 2012

                 Department of Defense Recovering Warrior Task Force, 2010-2011 Annual Report,
                 September 2, 2011


                 DoD IG
                 DoD IG Report No. DoDIG-2014-040, “Assessment of DoD Wounded Warrior Matters -
                 Managing Risks of Multiple Medications,” February 21, 2014

                 DOD IG Report No. DODIG-2013-113, “Assessment of DoD Wounded Warrior Matters -
                 Fort Riley,” August 6, 2013

                 DOD IG Report No. DODIG-2013-087, “Assessment of DoD Wounded Warrior Matters -
                 Joint Base Lewis-McChord,” May 31, 2013

                 DOD IG Report No. DODIG-2012-120, “Assessment of DoD Wounded Warrior
                 Matters - Wounded Warrior Battalion - West Headquarters and Southern California
                 Units,” August 22, 2012

                 DOD IG Report No. DODIG-2012-067, “Assessment of DoD Wounded Warrior
                 Matters - Camp Lejeune,” March 30, 2012

                 DOD IG Report No. SPO-2011-010, “Assessment of DOD Wounded Warrior Matters –
                 Fort Drum,” September 30, 2011

                 DOD IG Report No. SPO-2011-004, “Assessment of DOD Wounded Warrior Matters –
                 Fort Sam Houston,” March 17, 2011


                 Army
                 Army Audit Report No. A-2011-0008-IEM, “Army Warrior Care and Transition
                 Program,” October 21, 2010




26 │ DODIG-2014-100
                                                                                                                                  Appendixes




Appendix C
Army Structure
Army Warrior Transition Command
The WTC was activated in 2009 to provide sole guidance and policy for the Army’s
WTUs and CBWTUs.18                     The WTC is the lead proponent for the Warrior Care and
Transition Program (WCTP)19 — an Army-wide structure to provide support and
services for wounded, ill, or injured Soldiers.

The mission of the WTC is to successfully transition Soldiers and their families back
to the Army or to civilian life, through a comprehensive program of medical care,
rehabilitation, professional development, and achievement of personal goals.

A General Officer under the MEDCOM commands the WTC.20 The WTC was created
to provide a central comprehensive source for warrior care support, but does not
provide command and control authority for the WTUs.                                          The WTU commander
reports to the commander of the Military Treatment Facility (MTF) on the installation
to which it is assigned.

According to the WTC, as of December 16, 2013, there were 7,234 Warriors in
Transition in the Army WTUs and CBWTUs. Over 699 Soldiers were wounded in
battle or had TBI as a primary condition.                              Another 775 Soldiers had PTSD as a
primary condition.                Over 2,928 Soldiers had been injured or are ill for reasons
related to a deployment or a mobilization.                               Overall, 6,248 Soldiers had at least
one deployment. Since June 1, 2007, to 4 Quarter FY 2013, over 58,293 Soldiers
                                                                  th


have transitioned out of the WCTP.21


Army Warrior Transition Units
In 2007, the Army created 35 WTUs at major Army installations, primarily in the
Continental United States (CONUS) and at other sites outside of CONUS, to better



	 18	
        A Community-Based Warrior Transition Unit (CBWTU) functions as a WTU for Soldiers who receive medical care in their
        community - at Department of Defense, TRICARE, or Department of Veterans Affairs (VA) healthcare facilities. The CBWTU
        primarily provides outpatient care management and transition services for Army Reserve and National Guard Soldiers.
	19	
        Warrior Care and Transition Program, http://www.wtc.army.mil/about_us/programs.
	20	
        Warrior Transition Command, http://www.wtc.army.mil/about_us/wtc.html.
	21	
        Figures provided by the Army WTC, Issue Resolution and Tracking Team, December 16, 2013.




                                                                                                                             DODIG-2014-100 │ 27
Appendixes



                 support the recovery process of the Army’s wounded, ill, and injured service
                 members. As of October 21, 2013, there were 29 WTUs and 9 CBWTUs.

                 The purpose of the WTUs is to provide personal support to wounded, ill, and injured
                 Soldiers who require a minimum of 6 months rehabilitative care and complex medical
                 management and to prepare them for transition to civilian life or back to active duty.

                 Army Warriors in Transition
                 The mission statement of a Warrior in Transition is:

                                    I am a Warrior in Transition. My job is to heal as I transition back to
                                    duty or become a productive, responsible citizen in society. This is not
                                    a status, but a mission. I will succeed in this mission because I am a
                                    Warrior.


                 As of December 1, 2011, the Army replaced the term “Warrior in Transition”
                 with “Soldier.”

                 Triad of Care
                 The Army established the Triad of Care concept to envelop the Soldiers and their
                 families in comprehensive care and support, which focuses on each Soldier’s
                 primary mission – to heal and transition. The Triad of Care consists of a squad
                 leader, a nurse case manager (NCM), and a primary care manager (PCM). Within
                 the Triad, the squad leader leads Soldiers, the NCM coordinates their care, and the
                 PCM oversees the care. Specifically, the Triad of Care works together as a team22
                 to collect Soldier data and information and develop a plan of care specific to
                 each Soldier. The plan of care addresses medical treatment, administrative
                 requirements, support needs, and disposition. The intent is for all of these elements
                 to work together to ensure advocacy for the Soldiers, continuity of care, and a
                 seamless transition back into the force or to a productive civilian life. Figure 1
                 shows the Triad of Care structure.




                 	22	
                        According to the December 1, 2011 “Comprehensive Transition Plan,” Policy and CTP Guidance (CTP-G), the inter-
                        disciplinary team includes the WTU clinical and non-clinical team members that consist of the Triad of Care (Squad Leader,
                        Nurse Case Manager, and Primary Care Manager) along with the Occupational Therapist Registered (OTR), Certified
                        Occupational Therapy Assistant (COTA), Physical Therapy Assistant (PTA), Clinical Social Worker (CSW), Army Wounded
                        Warrior Advocate, Soldier and Family Assistant Center (SFAC) personnel and Transition Coordinators.




28 │ DODIG-2014-100
                                                                                                                                         Appendixes



Figure 1. Triad of Care


                                                                   PCM




                                                      t




                                                                                       Co
                                                                              Int
                                                          m
                                                    en
                                                      Tea




                                                                                 erd

                                                                                          mp
                                                it m
                                                   ary




                                                                                   i sc


                                                                                             ass
                                       mm




                                                                                    ipl
                                             in
                                         ipl




                                                                                       ina
                                                          Soldier / Family




                                                                                               ion
                                     isc




                                                                                          ry
                                   Co
                                            erd




                                                                                          Tea
                                         Int              ...turning an inury or




                                                                                             m
                                                          illness limiting event
                                                              into unlimited
                                                                potential.

                               NCM                        Interdisciplinary Team
                                                                                                 SL/PSG

                                                              Collaboration


                                                            *colors are adjusted
Source: Triad of Care, Comprehensive Transition Plan, Policy and CTP-Guidance (CTP-G),
December 1, 2011

FRAGO 3 to EXORD 188-07, March 20, 2009, established the WTU Triad of Care staff
to Soldiers ratios at: squad leader (1:10), nurse case manager (1:20), and primary
care manager (1:200).

The following describes each Triad of Care member’s roles and responsibilities.

               •	 Squad Leader - traditionally an NCO in the rank of Sergeant (E-5) or Staff
                   Sergeant (E-6) and the first line supervisor for all Soldiers. Their duty
                   description includes, but is not limited to: daily accounting for Soldiers,
                   counseling them and guiding them in their Comprehensive Transition Plan
                   (CTP),23 ensuring that they attend all appointments, tracking all of their
                   administrative requirements, and building trust and bonding with Soldiers
                   and their families.

               •	 Nurse Case Manager (NCM) - a civilian or Army military nurse who provides
                   the individualized attention needed to support the medical treatment,
                   recovery, and rehabilitation phases of care of the Soldiers. The goal of case

	23	
       The CTP supports Soldiers in returning to the force or transitioning to a Veterans’ status. Although standardized, the CTP
       allows each Soldier to customize his/her recovery process, enabling them to set and reach their personal goals with the
       support of the WTU cadre.




                                                                                                                                    DODIG-2014-100 │ 29
Appendixes



                                   management is to orchestrate the best care for the Soldiers by monitoring
                                   progression of care, Focused Transition Review24 recommendations, and
                                   Soldiers’ respective goals to facilitate transition of the Soldier from one
                                   level of care to the next.

                                •	 Primary Care Manager (PCM) - either a military or civilian healthcare
                                   provider (for example, Physician, Physician Assistant, or Nurse Practitioner)
                                   who is the medical point of contact and healthcare advocate for the
                                   Soldier. They provide primary oversight and continuity of healthcare and
                                   are to ensure the level of care provided is of the highest quality. They are
                                   the gateway to all specialty care (such as behavioral health specialists or
                                   orthopedic surgeons) and they coordinate with other care providers to
                                   ensure that the Soldiers are getting the treatment they need.

                 Army Medical Department Center & School WTU Cadre
                 Training Program
                 WTU Cadre Training is mandatory for newly assigned WTU Squad Leaders, Platoon
                 Sergeants, Company Commanders, First Sergeants, Company Level Executive Officers,
                 and Nurse Case Managers (NCMs).                            In addition, WTU/CBWTU Commanders are
                 directed to ensure military personnel assigned as WTU/CBWTU cadre successfully
                 complete training preferably before, but no later than 60 days after assuming a
                 cadre position.

                 Additional training requirements are outlined in MEDCOM Operations Order 13-60,
                 “Warrior Care and Transition Program Cadre Resilience Course,” July 2013.
                 This order requires all WTU Squad Leaders and Platoon Sergeants attend
                 AMEDDC&S WTU Cadre Resilience Course, preferably en route, prior to reporting
                 to a WTU/CBWTU assignment.                         As of September 2013, MEDCOM institutionalized
                 the WTU Cadre Resilience Course as part of the existing AMEDDC&S WTU
                 Staff/Cadre Training Program in order to improve cadre performance and resilience
                 as they care for WTU/CBWTU Soldiers and their families.

                 WTU cadre training is open to other non-medical WTU support staff, to include:
                 social workers, ombudsman, occupational therapists, Soldier and family hotline


                 	24	
                        According to the Comprehensive Transition Plan Guidance, December 2011, Focused Transition Review (FTR) is a formal
                        meeting that examines the CTP Scrimmage Plan, highlights projected MRDP dates, and focuses on what the WTU can do
                        to resource the Soldiers’ plan and how to apply resources to help the Soldier meet the benchmarks on the Scrimmage
                        worksheet.




30 │ DODIG-2014-100
                                                                                                                                            Appendixes



personnel, and administrative/operational personnel.                                        The course was designed
to provide standardized training based on common core courses that included,
but were not limited to, the following topics:

                    •	 Soldier Comprehensive Transition Plan,

                    •	 effective communication in a high risk/low trust environment,

                    •	 mission command,

                    •	 Disability Evaluation System,

                    •	 Comprehensive Soldier Fitness,

                    •	 programs and resources available to aid Soldiers and their Families,
                          and

                    •	 behavioral health awareness, suicide prevention and intervention, PTSD,
                          managing drug and alcohol circumstances, Psychotropic Medications,
                          and operational stress management.

Squad Leaders and Platoon Sergeants received certification after successful
completion of on-line and in-resident course. In addition, these NCOs were awarded
an additional skill identifier (ASI)25 and received Special Duty Assignment Pay (SDAP).26

NCMs attended a 3-week resident course focused on case management fundamentals.
A portion of the NCM resident training was conducted in conjunction with the
2-week WTU Cadre Training Program. The Nurse Case Manager Training Course core
competencies were derived from the Case Management Society of America Standards
of Practice.            In addition, the course incorporated aspects of care unique to the
military health system as identified in the Medical Management Guide.27




	 25	
        Department of the Army Pamphlet 611-21, January 22, 2007 describes Additional Skill Identifiers (ASI) as specialized skills,
        qualifications and requirements that are closely related to and are in addition to those inherent to a Soldiers Military
        Occupational Specialty (MOS).
	26	
        Army Regulation 614-200, October 11, 2011, describes Special Duty Assignment Pay as a monetary incentive paid to
        enlisted soldiers in jobs that have been extremely demanding duties or involve an unusual degree of responsibility.
	 27	
        The Medical Management Guide is issued by the Office of the Assistant Secretary of Defense for Health Affairs (ASD[HA])
        and TMA, Office of the Chief Medical Officer (OCMO), Population Health and Medical Management Division (PHMMD).
        The Guide covers the components of a Medical Management (MM) program.




                                                                                                                                       DODIG-2014-100 │ 31
Appendixes




                 Appendix D
                 U.S. Marine Corps Wounded Warrior Regiment
                 The 34th Commandant of the Marine Corps, Gen. James T. Conway, in his 2006
                 Planning Guidance, highlighted his vision of taking care of Wounded Warriors and
                 their families. As a result, the U.S. Marine Corps Wounded Warrior Regiment was
                 established in 2007.

                 The mission of the WWR is:

                                    …to provide and facilitate assistance to Wounded, Ill, and Injured (WII)
                                    Marines, Sailors attached to or in direct support of Marine units, and
                                    their family members, throughout the phases of recovery.28


                 The Regimental Headquarters, located in Quantico, Virginia, commands the operation
                 of two Wounded Warrior Battalions located at Camp Pendleton, California (WWBn-
                 West) and Camp Lejeune, North Carolina (WWBn-East).                                               The Marine Corps
                 WWR administers the Marine Corps’ Recovery Coordination Program by ensuring
                 wounded, ill, and injured Marines’ medical and non-medical needs are fully
                 integrated.

                 The United States Marine Corps Wounded Warrior Regiment brochure described
                 the Marine Corps care model as “unique in that its approach is to return recovering
                 Marines to their parent/operational units as quickly as their medical conditions
                 permit.” According to this brochure, allowing Marines to “stay in the fight” is what
                 makes the Marine Corps care model successful.

                 As of December 1, 2013, 712 wounded, ill, or injured Marines were “joined or
                 supported”29 by the WWR. Of the 712 wounded, ill, or injured Marines, 666 were
                 “transferred” to the WWR by service record or on temporary duty, and 46 Marines
                 were not joined, but supported at a Military Treatment Facility (MTF) receiving support
                 from resident WWR staff. On average, each month over 1,000 active duty wounded,
                 ill, and injured Marines were assigned a Recovery Care Coordinator (RCC) to conduct
                 comprehensive needs assessments and assist with wounded, ill, or injured Marines
                 and their families and caregivers with defining and meeting their individual goals


                 	 28	
                         Fact Sheet - Wounded Warrior Regiment Brochure, www.woundedwarriorregiment.org
                 	29	
                         The Wounded Warrior Regiment utilizes the terms “joined to the WWR as a Marine who is transferred by service
                         record or temporary assigned duty; supported means a Marine is not joined, but supported by the WWR staff at a
                         Military Treatment Facility.”




32 │ DODIG-2014-100
                                                                                                                                    Appendixes



for recovery, rehabilitation, and reintegration. The 353 Marines who were joined to
the WWR were either wounded in combat or were ill and/or injured in a combat
zone, and 313 Marines joined to the WWR were wounded, ill, or injured outside
a combat zone.30

The Sergeant Merlin German Wounded Warrior Call Center31 renders assistance
to wounded, ill, and injured Marines and Marine veterans with obtaining benefits,
referrals, and providing information on community reintegration services, and other
resources.           In addition to receiving calls from wounded, ill, and injured Marines
and their families/caregivers, the call center conducts outreach calls offering
assistance on issues such as disability ratings, medical care, employment, counseling,
and benevolent organizations.                         Most outreach calls are to wounded, ill, and
injured Marines on the Temporary Disability Retirement List (TDRL),32 to ensure
they receive appropriate support. The total number supported by the Call Center
throughout the year, either by outreach or incoming calls, is more than 24,000. 33

In addition to the two WWBns, located at Camp Pendleton (WWBn-West) and
Camp Lejeune (WWBn-East), there are multiple detachments located around the
globe, including at MTFs and VA Polytrauma34 Centers.

There are also many District Injured Support Coordinators (DISCs) throughout
the U.S. that conduct face-to-face visits and community outreach.                                         Table 4 shows
Wounded Warrior Regiment Detachment /Company/ Liaison Locations.




	30	
       Demographics from Wounded Warrior Regiment, December 16, 2013.
	31	
       Fact Sheet - Wounded Warrior Regiment, Sergeant Merlin German Wounded Warrior Call Center,
       www.woundedwarriorregiment.org/.
	32	
       Temporary Disability Retirement List (TDRL) is a list of service members found to be unfit for military duty by reason of
       disability that has not stabilized to permit an assessment of a permanent disability rating.
	33	
       Demographics from Wounded Warrior Regiment, December 16, 2013.
	34	
       “Polytrauma” was termed by VA to describe injuries to multiple body parts and organs as a result of blast-related wounds
       seen in Operation Enduring Freedom (OEF) and Operation Iraqi Freedom (OIF). Traumatic brain injury (TBI) frequently
       occurs in polytrauma in combination with other disabling conditions, such as amputation, auditory and visual impairments,
       spinal cord injury (SCI), post-traumatic stress disorder (PTSD), and other medical conditions.




                                                                                                                               DODIG-2014-100 │ 33
Appendixes



                 Table 4. Wounded Warrior Regiment Detachment/Company/Liaison Locations
                         Wounded Warrior Battalion - West Sites                    Wounded Warrior Battalion - East Sites
                      Naval Medical Center San Diego, CA                  Naval Hospital Camp Lejeune, NC
                      Naval Hospital Camp Pendleton, CA                   Naval Medical Center Portsmouth, VA
                                                                          Walter Reed National Military Medical Center,
                      Naval Hospital Twentynine Palms, CA                 Bethesda, MD
                      VA Polytrauma Rehabilitation Center,                Richmond Polytrauma Rehabilitation Center,
                      Palo Alto, CA                                       Richmond, VA
                      Naval Medical Clinic, Kaneohe Bay, HI               San Antonio Military Medical Center, San Antonio, TX
                                                                          Minneapolis Veterans Administration Health Care
                      Naval Hospital Okinawa, Japan                       System, Minneapolis, MN
                                                                          James A. Haley Veterans Hospital, Tampa, FL
                                                                          Landstuhl Regional Medical Center, GE
                                                                          Fort Belvoir Community Hospital, Fort Belvoir, VA

                 Source: Wounded Warrior Regimental Structure Fact Sheet; woundedwarriorregiment.org;
                 June 2013.


                 Personnel Support of the Wounded Warrior Battalions
                 There are several members of the care team that support individual USMC Marine
                 recovery and transition, including, among others, the Marine’s section leader,
                 Medical Case Manager (MCM), PCM, and RCC.

                 The following briefly describes each member’s roles and responsibilities.

                                •	 Section Leader – a military service member SNCO35 who plays a key
                                  leadership role in supporting the Marine through the recovery process
                                  and helps them complete actions necessary to meet their transition goals
                                  as outlined in their Comprehensive Recovery Plan (CRP).36 The section
                                  leader combines the discipline and standards of the Marine Corps with an
                                  understanding of the obstacles Warrior Marines face, while serving as their
                                  advocate to ensure coordinated medical and non-medical recovery efforts.
                                  WWR guidelines indicate that section leaders support their wounded, ill and
                                  injured Marines on a 1:10 ratio.


                 	 35	
                      A senior non-commissioned officer is an enlisted member of the armed forces, appointed to a rank conferring leadership
                      over other enlisted personnel.
                 	36	
                       The primary tool used to coordinate a recovering Marine’s and their family’s care is the Comprehensive Recovery Plan
                      (CRP). This plan is based on information from the Marine’s recovering needs assessment, which takes into consideration
                      various components such as employment, housing, financing, counseling, family support, disability evaluation process,
                      among others. The CRP is owned by the Marine and is referred to as a “roadmap” for the wounded, ill, and injured Marine
                      and their family and reflects their medical and non-medical goals and milestones from recovery and rehabilitation to
                      community reintegration.




34 │ DODIG-2014-100
                                                                                                                       Appendixes



               •	 Medical Case Manager – usually a civilian employee who “assesses, plans,
                   implements, coordinates, monitors and evaluates options and services to
                   meet the Marines’ complex health needs.”37 The medical case manager helps
                   to coordinate medical appointment schedules and other medical related
                   activities. The case load for case management ranges from 10-50 patients
                   per case manager, depending on the acuity. 38

               •	 Primary Care Manager – either a military or civilian health care provider
                   (for example, physician, physician’s assistant, or nurse practitioner) who
                   is the medical point of contact and healthcare advocate for the Warrior.
                   They provide primary oversight and continuity of healthcare and are
                   to ensure the level of care provided is of the highest quality. They are
                   the gateway to all specialty care (such as behavioral health specialists or
                   orthopedic surgeons) and they coordinate with other physicians to ensure
                   that the Warriors are getting the treatment that they need. The PCM to
                   wounded, ill, and injured Marine is approximately 200 to 250.

               •	 Recovery Care Coordinator (RCC) – usually a civilian employee who serves
                   as the Warrior’s primary point of contact to help them define their individual
                   goals for recovery, rehabilitation, and community reintegration. Additionally,
                   the RCC identifies the services and resources needed to achieve these goals
                   and develops the CRP that guides the Warrior during their transition. The
                   RCC to wounded, ill, and injured Marine is no greater than 1:40.

Wounded Warrior Regiment (WWR) Section Leader Training
The WWR implemented Computer Based Training (CBT) for all WWR staff. Within
30 days of assignment to the regiment, headquarters, battalion, or detachment,
all military and civilian personnel were required to complete the CBT modules.
CBT modules included, but were not limited, to the following topics:

               •	 WWR Command Overview and Lines of Operation (mind, body, spirit, and
                   family);

               •	 Command Inspection Team, District Injured Support Coordinators (DISC);

               •	 Effective Counseling, Family Readiness Program;

               •	 Veterans’ Service and Support Organizations, Fundamentals of Public Affairs;

	 37	
        DoD TRICARE 2009 Medical Management Guide, ‘Case Management,” version 3.0, electronic pages, 62 and 65.
	 38	
        Bureau of Medicine and Surgery (BUMED) Instruction, 6300.17, “Navy Medicine Clinical Case Management,”
        November 23, 2009.




                                                                                                                  DODIG-2014-100 │ 35
Appendixes



                         •	 Introduction to Gifts Acceptance;

                         •	 Reserve Medical Entitlements Determination (RMED);

                         •	 Traumatic Service Members’ Group Life Insurance (TSGLI);

                         •	 Identifying the Signs and Symptoms of Suicide and Intervening in Suicidal
                            Crisis;

                         •	 Introduction to Integrated Disability Evaluation System (IDES);

                         •	 Marine Corps Wounded, Ill, and Injured Tracking System (MCWIITS);

                         •	 Non-Medical Attendant/Invitational Travel Orders (NMA/ITOs); and

                         •	 Recovery Care Coordinator (RCC) and Comprehensive Recovery Plan (CRP).

                 To better support wounded, ill, and injured Marines to remain in operational
                 units, operational unit commanders and senior enlisted leaders received training
                 that covered the WWR Handbook, web-based materials, social media outreach,
                 wounded, ill, and injured Marines’ administrative support needs, and RCC support.
                 Additionally, from October 2010 through July 2011, the WWR also piloted an
                 Enlisted Professional Military Education (EPME) course.      Reportedly, results were
                 favorable in that this course provided practical information for senior enlisted
                 responsibilities and provided more insight into available resources for wounded,
                 ill, and injured Marines. Based on those results, WWR training has been included
                 in all EPME courses.




36 │ DODIG-2014-100
                                                                                              Appendixes




Appendix E
Applicable Criteria
1.	   FRAGO 3 to Operational Order (OPORD) 07-055, “MEDCOM Implementation
      of the Army Medical Action Plan (AMAP),” June 2007. This order established
      the development and delivery of standardized training for the cadre of WTUs,
      with special focus on the “WTU Triad.”

2.	   Warrior Care and Transition Program (WTCP) Policy Memo 14-001, “Policy
      Memorandum - Warrior Transition Unit (WTU)/Community-Based Warrior
      Transition Unit (CBWTU) Cadre Assignments,” January 15, 2014. This policy
      establishes procedures for identifying, screening, and selecting best-qualified
      candidates for WTU/CBWTU cadre positions.

3.	   Marine Corps Order P1300.8R, “Marine Corps Personnel Assignment Policy,”
      October 4, 1994. This order describes general assignment policy for Marine
      Corps personnel.

4.	   Marine Corps Order 5320.12H, “Precedence Levels for Manning and
      Staffing,” June 4, 2012. This order provides policy for manning and staffing
      the Marine Corps.

5.	   Marine Corps Order 1001R.1K, “Marine Corps Reserve Administrative
      Management Manual (MCRAMM),” March 22, 2009.                   This order describes
      Individual Mobilization Augmentees as individual Selected Reservists who receive
      training and are pre-assigned to an Active Component (AC) organization billet
      that must be filled to meet the requirements of the organization to support
      mobilization    requirements   across    the   spectrum   of   military   operations
      and training.

6.	   Marine Corps Order 1001.62A, “Individual Mobilization Augmentee (IMA)
      Program,” January 17, 2012. This order describes the IMA mission as providing
      a source of trained and qualified members of the Selected Marine Corps Reserve
      (SMCR) to fill individual military billets which augment AC units of the Marine
      Corps, Department of Defense entities, and other departments or agencies of
      the U.S. Government possessing IMA structure on their T/O, also referred to as
      “Commands.”




                                                                                         DODIG-2014-100 │ 37
                                               Management Comments




Management Comments
Department of the Army, Office of Surgeon General




                                                     DODIG-2014-100 │ 39
Management Comments



                 Department of the Army, Office of Surgeon General (cont’d)


                       


                                          U.S. Army Medical Command (MEDCOM) and
                                             Office of the Surgeon General (OTSG)

                                             Comments on DODIG Draft Report
                      Assessment of DOD Wounded Warrior Matters: Selection and Training of Warrior
                            Transition Unit and Wounded Warrior Battalion Leaders and Cadre
                                          (Project No. D2010-D00SOP-0209.006)


                      RECOMMENDATION 1.a.: Take action to meet the instructor staffing requirements for
                      the WTU Cadre Training Program in response to the October 25, 2013, memorandum
                      from the Assistant Secretary of the Army (Manpower and Reserve Affairs), subject
                      Validation of the U.S. Army Medical Department Center & School [AMEDDC&S]
                      Manpower Organizational Study.

                      RESPONSE: Concur. The US Army Manpower Analysis Agency reconsidered the
                      number of requirements for validation based on additional data and information
                      submitted by the AMEDDC&S. Of the 14 requested instructor requirements for
                      Department of Warrior Transition Units, 13 were approved. (See attachment 1,
                      paragraph 3.a.(2)).



                      RECOMMENDATION 1.b.: Commander, Warrior Transition Command [WTC], in
                      coordination with Commander, Army Medical Department Center and School, assess
                      instructor-to-student staffing ratios for WTU Cadre Training Program to identify
                      instructor shortfalls and initiate action to request formal manpower reviews as needed to
                      meet mission requirements.

                      RESPONSE: Concur. The WTC and AMEDDC&S continue to work together to assess
                      WTU Cadre Training Program needs and initiate action to meet mission requirements.

                      For example, the AMEDDC&S Program of Instruction (POI) prescribes a ratio of
                      1 instructor to 20 students (see attachment 2, pages 15-1 through 17-1). Some of these
                      ratios will be changed to reflect the US Army Training and Doctrine Command
                      (TRADOC) standard for small group instruction of 1:16 (see attachment 3). While these
                      ratios are not always achievable due to the limited resources, the AMEDDC&S
                      Department of Warrior Transition supplements instructor staff with internal and external
                      subject matter experts to meet mission requirements. We anticipate publishing the
                      revised POI with TRADOC ratios by the end of FY15, depending on Curriculum
                      Development Division workload.

                      The Army Nurse Case Manager course, required for WTU nurse case managers, is
                      authorized two instructors but only has one on board. The AMEDDC&S recently
                      approved a request to fill the vacant nurse educator position (see attachment 4).
                      MEDCOM anticipates the position will be filled by 1 August 2014.



                                                                                                          Encl




40 │ DODIG-2014-100
                                                                                               Management Comments



Department of the Army, Office of Surgeon General (cont’d)


    



   In FY 14, WTC agreed to provide funding for contract instructors. The contract will
   provide four instructors to support the program by providing instruction across a variety
   of subject matter, alleviating many current challenges with small group instruction. The
   contract is expected to be executed during July 2014.

   In addition, the Southern Regional Medical Command collaborated with WTC to provide
   military support to the program though an attached Noncommissioned Officer (NCO)
   from the local Warrior Transition Battalion. A second NCO is expected to be attached
   by 30 June 2014.

   Finally, MEDCOM Operations Order 13-60, Warrior Care and Transition Program Cadre
   Resilience Course, directed the Cadre Resilience Course be added to the program by
   1 September 2013 (see attachment 5). A request to hire the CRC position was
   submitted in January 2014, but has not been authorized due to competition with other
   hiring priorities for the AMEDDC&S and a MEDCOM-imposed cap on civilian positions.
   The CRC is taught by a team from MEDCOM’s Comprehensive Solider and Family
   Fitness Program, in accordance with MEDCOM Operations Order 13-60. The
   Department of Warrior Transition will continue to work toward hiring the staff position,
   which will provide additional instructor support, course and student management, and
   education administration.




                                               2




                                                                                                     DODIG-2014-100 │ 41
Management Comments



                 Deputy Commandant for Manpower and Reserve
                 Affairs




42 │ DODIG-2014-100
                                             Management Comments



Deputy Commandant for Manpower and Reserve
Affairs (cont’d)




                                                   DODIG-2014-100 │ 43
                                                                    Acronyms and Abbreviations




Acronyms and Abbreviations
         AC Active Component
        AHS Academy of Health Sciences
   ALARACT All Army Activities
     AMAP Army Medical Action Plan
 AMEDDC&S Army Medical Department Center and School
        ASI Additional Skill Identifier
        CBT Computer Based Training
    CBWTU Community-Based Warrior Transition Unit
       CMC Commandant of the Marine Corps
     CONUS Continental United States
        CRP Comprehensive Recovery Plan
        CTP Comprehensive Transition Plan
  DC M&RA Deputy Commandant for Manpower and Reserve Affairs
       DISC District Injured Support Coordinator
      EPME Enlisted Professional Military Education

     EXORD Department of the Army Execution Order
     FRAGO Fragmentary Order
       GAO Government Accountability Office
       IDES Integrated Disability Evaluation System
       IMA Individual Mobilization Augmentee
      MCM Medical Case Manager
  MCRAMM Marine Corps Reserve Administrative Management Manual
       MCO Marine Corps Order
   MCWIITS Marine Corps Wounded, Ill, and Injured Tracking System
  MEDCOM The United States Army Medical Command
   MEDDAC Medical Department Activity
      MDTs Multi-Disciplinary Teams
       MOS Military Occupational Specialty
       MTF Medical Treatment Facility
       NCM Nurse Case Manager
       NCO Non-Commissioned Officer
  NMA/ITOs Non-Medical Attendant/Invitational Travel Orders
       OCO Overseas Contingency Operations
    OPORD Operational Order
      OTSG Office of the Surgeon General
       PCM Primary Care Provider




                                                                               DODIG-2014-100 │ 45
Acronyms and Abbreviations



                            PTSD Post-Traumatic Stress Disorder
                             RCC Recovery Care Coordinator
                              RFI Request for Information
                           RMED Reserve Medical Entitlements Determination
                            SDAP Special Duty Assignment Pay
                           SMCR Selective Marine Corps Reserve
                             SME Subject Matter Expert
                            SNCO Senior Non-Commissioned Officer
                              TBI Traumatic Brain Injury
                             TDA Table of Distribution and Allowances
                            TDRL Temporary Disability Retirement List
                            TO&E Table of Organization and Equipment
                            TSGLI Traumatic Service Members’ Group Life Insurance
                         USAMAA U.S. Army Manpower Analysis Agency
                              VA Department of Veterans Affairs
                           WCTP Warrior Care and Transition Policy
                            WRO Wounded Warrior Regiment Order
                              WT Warrior in Transition
                            WTB Warrior Transition Battalion
                            WTC Warrior Transition Command
                            WTU Warrior Transition Unit
                             WW Wounded Warrior
                             WII Wounded, Ill, and Injured
                      WWBn-East Wounded Warrior Battalion-East
                      WWBn-West Wounded Warrior Battalion-West
                           WWR Wounded Warrior Regiment




46 │ DODIG-2014-100
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
